Report No. DODIG-2013-047      February 28, 2013




         Quality Control Review of the
        Defense Finance and Accounting
          Service Audit Organization
Additional Information and Copies
The Department of Defense, Office of the Assistant Inspector General for Audit Policy and
Oversight, prepared this report. To obtain additional copies of the final report, visit
www.dodig.mil/audit/reports or contact the Office of the Assistant Inspector General for Audit
Policy and Oversight at (703) 604-8760 or fax (571) 372-7454.

Suggestions for Reviews
To suggest or request reviews, contact the Office of the Assistant Inspector General for Audit
Policy and Oversight by phone (703) 604-8760 (DSN 664-8760), by fax
(571) 372-7454, or by mail:

                      Department of Defense Inspector General
                      OIG-APO
                      ATTN: Suite 11H25
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations


ACE                           Audit Client Executive
AICPA                         American Institute of Certified Public Accountants
DFAS                          Defense Finance and Accounting Service
GAGAS                         Generally Accepted Government Auditing Standards
IR                            Internal Review
MOCAS                         Mechanization of Contract Administration Services
OMB                           Office of Management and Budget
Introduction
Defense Finance and Accounting Service
The Defense Finance and Accounting Service (DFAS) is the world’s largest finance and
accounting operation. DFAS pays all DoD military and civilian personnel, retirees and
annuitants, as well as major DoD contractors and vendors. DFAS also supports customers
outside of the Department of Defense, to include the Executive Office of the President,
Department of Veterans Affairs, and the Department of Health and Human Services. In
FY 2011, DFAS:

       •   processed 171.7 million pay transactions,
       •   made 7.7 million travel payments,
       •   paid 11.8 million commercial invoices,
       •   managed $559.4 billion in military retirement and health benefits funds,
       •   made $608 billion in disbursements to pay recipients, and
       •   maintained 264.1 million general ledger accounts.

DFAS Internal Review Organization
DFAS Internal Review (IR) is an independent office within DFAS that provides responsive,
professional and objective services to enhance DFAS stewardship and value to its customers.
DFAS IR examines programs, systems, and processes and provides information, analyses,
recommendations, and other assistance applicable to DFAS management’s objectives. The
Director, Internal Review, reports directly to the Deputy Director, DFAS. The DFAS IR audit
organization has offices in Columbus, Ohio; Cleveland, Ohio; and Indianapolis, Indiana.
Additional details on the DFAS IR organization and the scope and methodology for this review
are contained at Appendix D.




                                               1
Appendix A. System of Quality Control Was
Suitably Designed
With the exception of a few areas, DFAS IR’s system of quality control was suitably designed.
Generally accepted government auditing standards (GAGAS) 3.52, 1 requires that each audit
organization must document its quality control policies and procedures and communicate those
policies and procedures to its personnel. DFAS IR had established its comprehensive quality
control system in the DFAS IR Policies and Procedures Manual (the Manual 2).

The areas in the Manual requiring improvement included inaccurate policies and procedures
pertaining to attestation engagements and reaching a consensus on audit findings. However, the
issues we identified with DFAS IR’s system of quality control were not cumulatively significant
enough to rise to the level of deficiency or significant deficiency. In addition, we made other
recommendations in Appendix B pertaining to the policies and procedures where appropriate
based on the type of significant deficiency we found.

DFAS IR’s quality control policies and procedures required amending because they provide
inaccurate information. Specifically, the Manual, Exhibit 1700-6, Attestation Engagements Plan,
December 2010, contains the following guidance:

                 The Institute of Internal Auditors Performance Standard 2201 3 states
                 that in planning an engagement, auditors should consider the significant
                 risks to the activity, its objectives, resources, and operations and the
                 means by which the potential impact of risk is kept to an acceptable
                 level.

GAGAS 1.16a states for performance audits, auditors may use other standards in conjunction
with GAGAS, such as the “International Standards for the Professional Practice of Internal
Auditing.” However, the “International Standards for the Professional Practice of Internal
Auditing” does not apply to attestation engagements. DFAS IR’s inclusion of this information
within Exhibit 1700-6 misleads audit personnel on the planning requirements for attestation
engagements.

In addition, the second area requiring improvement in the Manual for attestation engagements is
the presentation of inaccurate information in Exhibit 1700-4, the Agreed-Upon Procedures
Completion Checklist. GAGAS 6.01 and American Institute of Certified Public Accountants
(AICPA) standards limit the work performed to specific procedures performed on a subject
matter and require the report on agreed-upon procedures to be in the form of procedures and
findings, and not indicate any level of assurance. However, Exhibit 1700-4 contained steps to


1
  The newest version of GAGAS is dated December 2011. However for this review, we were required to use the
July 2007 version of GAGAS, as it covered the period of our review, October 1, 2009 to March 31, 2011.
2
  The Manual was updated in 2008, 2009, and 2010. We used those versions to conduct our external quality control
review.
3
  The Institute of Internal Auditors Performance Standard 2201 refers to the “International Standards for the
Professional Practice of Internal Auditing.”


                                                        2
check for documentation in the project files to support conclusions, recommendations, and
elements of findings.

Additionally, the Manual should be updated to include guidance for situations in which
consensus on audit findings and plans of action are not possible to ensure timely reporting of
audit results. Though the Manual contains policies and procedures on the process DFAS IR uses
to report DFAS management views on audit findings, situations may arise when DFAS
management does not agree with the audit findings or proposed plans of action, which could
impact the timeliness and relevance of the DFAS IR audit report.

DFAS IR encourages personnel to work with DFAS management to reach an agreement on audit
findings and related plans of action to address deficiencies. The Manual, Chapter 1300,
Preparing the Audit Report, December 2010, states that the Audit Manager, Audit Client
Executives (ACE), and Deputies should continue working with DFAS management until DFAS
management concurs and keep the audit team informed. Further, Chapter 1230, Developing the
Findings, July 2008, states that the audit team must 4 work with DFAS management and program
officials when developing action plans. Meetings with DFAS management to discuss and
finalize action plans should include the applicable DFAS IR managers necessary to reach a
consensus and must be documented in the working papers. Audit issues that the staff and DFAS
management cannot agree on must be elevated up the DFAS IR chain of command for action.

GAGAS 8.36 states that when the audited entity’s comments are inconsistent or in conflict with
the findings, conclusions, or recommendations in the draft report, or when planned corrective
actions do not adequately address the auditor’s recommendations, the auditors should evaluate
the validity of the entity’s comments. If the auditors disagree with the comments, they should
explain in the report their reasons for disagreement. Conversely, the auditors should modify
their report as necessary if they find that the comments are valid and supported with sufficient
appropriate evidence.

Recommendations, Management Comments, and Our
Response
We recommend that the Director, DFAS:

1. Update the DFAS IR Policies and Procedures Manual to include policies and
   procedures that:

           a. Remove all references to the “International Standards for the Professional
              Practice of Internal Auditing,” from Chapter 1700, Attestation Engagements,
              December 2010.




4
    For Manual references within this report, language that is bolded and underlined was emphasized by DFAS IR.



                                                          3
Management Comments
The Director, DFAS, agreed stating that the DFAS IR Policies and Procedures Manual,
Attestation Chapters 4, 5, and 6 will replace Chapter 1700 from the previous manual and will not
make reference to any standards other than GAGAS and AICPA Standards for Attestation
Engagements. The DFAS IR Policies and Procedures Manual will be updated by
February 1, 2013. The Director, DFAS, also stated that GAGAS 5.44b, 5.52b, and 5.62b do
allow the possibility of following the “International Standards for the Professional Practice of
Internal Auditing” in attestation engagements.

Our Response
DFAS comments were responsive. We do agree that GAGAS 5.44b, 5.52b, and 5.62b indicate
that internal audit organizations may also follow the “International Standards for the Professional
Practice of Internal Auditing” when communicating the results of attestation engagements.
However, the Manual, Chapter 1700, Attestation Engagements, December 2010, did not contain
information on this requirement. Instead, the Manual directed auditors to follow the
“International Standards for the Professional Practice of Internal Auditing” when executing
planning for attestation engagements instead of AICPA or GAGAS standards. No additional
comments are needed.

       b. Revise Exhibit 1700-4, Agreed-Upon Procedure Completion Checklist, and
          remove the GAGAS fieldwork and reporting standards that are not applicable.

Management Comments
The Director, DFAS, agreed stating that the DFAS IR Policies and Procedures Manual, will not
include the Exhibit 1700-4 completion checklist. A revised checklist will be incorporated as a
TeamMate template and will not contain Performance or Financial audit fieldwork or reporting
standards. The DFAS IR Policies and Procedures Manual will be updated by February 1, 2013.

Our Response
DFAS comments were responsive. No additional comments are needed.

       c. Reference GAGAS 8.36 guidance to address situations where consensus on the
          auditor’s findings or proposed plans of action is not possible.

Management Comments
The Director, DFAS, agreed. She stated that the GAGAS 2007 version 8.36 paragraph is now
paragraphs 4.38, 5.37, and 7.37 in the GAGAS December 2011 version. Further, she stated
except for GAGAS paragraph 4.38 which pertains to financial audits and is not applicable, the
GAGAS paragraphs 5.37 and 7.37 will be incorporated into the DFAS IR Policies and
Procedures Manual. The DFAS IR Policies and Procedures Manual will be updated by
February 1, 2013.

Our Response
DFAS comments were responsive. No additional comments are needed.


                                                4
Appendix B. Significant Deficiencies That
Provide the Basis for the Fail Opinion
We identified significant deficiencies that existed in DFAS IR’s compliance with its system of
quality control. GAGAS 3.51 states that an audit organization’s system of quality control
encompasses the audit organization’s leadership, emphasis on performing high-quality work, and
the audit organization’s policies and procedures designed to provide reasonable assurance of
complying with professional standards and applicable legal and regulatory requirements. The
significant deficiencies identified do not provide the DFAS IR audit organization with reasonable
assurance of performing and reporting in conformity with GAGAS in all material respects.
Therefore, we are issuing a fail opinion on its external quality control review.

Significant deficiencies affecting our opinion on the DFAS IR audit organization’s compliance
with its system of quality control are:

       •   DFAS IR did not exercise sufficient professional judgment as evidenced by
           substantive noncompliance with GAGAS, AICPA standards, and its system of quality
           control on seven of eight assignments reviewed;
       •   Internal quality control monitoring of projects was not effective;
       •   Quality control checklists for a project were not effective;
       •   Supervisory reviews of work performed did not prevent repeated instances of
           noncompliance with GAGAS, AICPA standards, or DFAS IR policies and
           procedures;
       •   Project type changes caused significant noncompliance with GAGAS and DFAS IR
           policies and procedures;
       •   Performance of nonaudit services created an organizational impairment to
           independence;
       •   A nonaudit service was reported on as an engagement survey; and
       •   Substantive noncompliance with GAGAS, AICPA Standards for Performing and
           Reporting on Agreed-Upon Procedures and Examination Attestation Engagements,
           and DFAS IR policies and procedures.

These significant deficiencies provide the basis for the opinion and our concerns about the audit
organization’s inability to comply with the DFAS IR quality control system to provide
reasonable assurance of compliance with GAGAS.

Implementing the recommendations identified in this report would assist the DFAS IR’s efforts
in improving its audit organization’s system of quality control and help to increase compliance
with GAGAS requirements.

Failure to Exercise Sufficient Professional Judgment
We determined that the DFAS IR audit organization did not exercise professional judgment due
to the vast array of noncompliances found in the majority of auditing standards areas including,
but not limited to, independence, planning, supervision, performing and reporting attestation


                                                5
           engagements, reporting, and quality control. Specific examples of the audit organization’s lack
           of professional judgment are included in Tables 1 and 2 and are discussed in detail throughout
           this report. An “X” in the column indicates that the project reviewed did not comply with the
           standard.
                       Table 1. Deficiencies for Performance Audits and Attestation Engagements

                                      Professional                                 Evidence and                          Quality
 Project Reviewed      Independence    Judgment      Planning      Supervision    Documentation   Reporting   Criteria   Control
                                                                Columbus Audit Office
 Review of
 Mechanization of
 Contract                   X              X           N/A              N/A                 N/A     N/A        N/A         X
 Administration
 Services (MOCAS)
 Erroneous
 Payments*
 Agreed-Upon
 Procedures:                X              X            X                X                           X           X         X
 MOCAS Accounts
 Payable**
                                                                 Cleveland Field Office
 Audit of Internal
 Controls over the          X                           X                                   X                  N/A         X
 Thrift Savings Plan
 Voucher Process
 Transitional
 Readiness Audit of         X              X            X                X                  X        X         N/A         X
 the R&A Pay
 Conversion to the
 Government
                                                                Indianapolis Field Office
 Vendor Pay                 X              X           N/A              N/A                 N/A     N/A        N/A         X
 Erroneous Payment
 Audit Round Six*
 Independent
 Examination of the         X              X            X                X                  X        X           X         X
 Columbus Cash
 Accountability
 System, Phase 2**
*We determined the MOCAS Erroneous Payments and the Vendor Pay Erroneous Payments projects were nonaudit services.
 DFAS IR reported these projects as audits conducted in accordance with GAGAS.
**The Criteria column is applicable only to the two attestation engagement projects.




                                                                             6
                               Table 2. Deficiencies for Nonaudit Services 5

     Project Reviewed                            Independence                           Quality Control
                                             Columbus Audit Office
     End-to-End Assessment of
     DFAS Texarkana                                       X                                    X
     Operations
                                           Indianapolis Audit Office
     Closeout: Survey of DFAS
     Certifying Legislation,
                                                          X                                    X
     Standard Operating
     Procedures*
    *The Engagement Survey was not announced or reported as a GAGAS performance audit or attestation
     engagement.

Deficiencies in multiple standards areas, which evidenced a lack of professional judgment, were
reflected at all DFAS IR audit offices. The Cleveland audit office was noncompliant in seven
standard areas for one performance audit reviewed and had four deficiencies for the other
performance audit reviewed. The Columbus and Indianapolis offices were noncompliant in three
standard areas for two performance audits reviewed, which we determined were actually
nonaudit services that involved the auditors performing a management function. Two additional
nonaudit service engagements completed by the Columbus and Indianapolis offices disclosed a
lack of consideration of GAGAS independence requirements. The attestation engagement
completed by the Columbus audit office was noncompliant in seven standard areas and the
attestation engagement completed by the Indianapolis audit office was noncompliant in eight
standard areas. The significant deficiencies in independence, supervision, reporting, quality
control, and professional judgment coupled with the deficiencies in multiple other GAGAS areas
serve as the basis for the fail opinion.

Quality Assurance Program
The DFAS IR internal quality control monitoring did not identify noncompliances with GAGAS
and the Manual for a project that we identified as part of our review. GAGAS 3.54 states that
audit organizations should analyze and summarize the results of their monitoring procedures at
least annually and identify any systemic issues needing improvement, along with
recommendations for corrective action.

The Manual Chapter 1100, Quality Control System, September 2010, states:

                   To comply with GAGAS 3.54, DFAS IR managers will conduct annual
                   monitoring of audit procedures under IR’s Enterprise Risk
                   Management Program and provide recommended corrective actions to
                   address any identified systemic issues. Risk identification, assessment
                   of controls, and testing will serve to measure product quality regarding

5
 GAGAS does not cover professional services other than audits and attestation engagements. However, audit
organizations that provide nonaudit services must evaluate whether providing the service creates an independence
impairment.


                                                          7
               adherence to GAGAS, IR audit policies and procedures, and other
               supplemental guidance, as applicable.

Internal Quality Control Monitoring of One Project Failed to Identify
GAGAS Noncompliance
The DFAS IR’s FY 2011 Enterprise Risk Management report October 3, 2011, identified six
quality control areas needing improvement such as consideration of fraud risk factors, audit
planning, and reporting. Project Number CL08PRP010CL, Transitional Readiness Audit of the
Retired and Annuitant (R&A) Pay Conversion to the Government, August 30, 2010, was
included as part of DFAS IR’s internal quality control monitoring and was also evaluated during
our external quality control review. DFAS IR staff did not identify several noncompliances with
GAGAS and DFAS IR policies and procedures.

DFAS IR changed a nonaudit service to a limited scope performance audit and inappropriately
classified the change as a change in project scope, despite the fact that most of the fieldwork was
completed and performed as a nonaudit service. When the project type was changed, DFAS IR
was required to adhere to the GAGAS standards for general and performance planning, and
fieldwork and reporting.

DFAS IR did not consider the independence implications resulting from the decision to change
the work from a nonaudit service to a limited scope audit when the same personnel were
conducting the work. As a supplemental safeguard for maintaining auditor independence when
performing nonaudit services, GAGAS 3.30c states that audit organizations should exclude
personnel who provided the nonaudit services from planning, conducting, or reviewing audit
work in the subject matter of the nonaudit service. The Manual, Chapter 1210, Planning the
Audit, July 2009, requires the Audit Manager to preclude personnel who performed related
nonaudit services from participating in planning, conducting, or reviewing audit work related to
the nonaudit services under the principle that auditors cannot audit their own work.

Further, the Manual, Chapter 1500, Nonaudit Services, July 2009, states that the appropriate
Audit Client Executive (ACE) must establish and document an understanding with DFAS
management regarding the objectives, scope of work, and product or deliverables of the nonaudit
service. The ACE should also establish and document an understanding with management that
management is responsible for the substantive outcomes of the work. Therefore, ACEs have a
responsibility to be in a position, in fact and appearance, to make an informed judgment on the
results of the nonaudit service. There was no evidence in the project files to indicate that DFAS
IR considered these requirements when the nonaudit service was started.

DFAS IR’s failure to identify significant noncompliance with GAGAS was caused by its
insufficient understanding of the use and application of GAGAS. Further, DFAS IR reviewers
did not have an adequate understanding of their organization’s policies and procedures. As a
result, DFAS IR personnel did not identify significant departures from GAGAS and internal
requirements to address issues that we found.




                                                 8
Quality Control Checklists for One Project Was Not Effective
As part of the quality assurance program, DFAS IR created numerous checklists that require
auditors to consider GAGAS and AICPA standards and the Manual when performing and
reporting the results of their work. In most instances, the required checklists were completed by
auditors and managers. However, for Project Number IN10SRA004CO.00, Independent
Examination of the Columbus Cash Accountability System – Defense Agencies (CCAS-DA),
Phase 2, March 18, 2011, the quality control checklists were not effective.

       •   The Internal Review Project Checklist for Attestation Engagements was completed
           for this project. The Reporting section of this document contained elements
           applicable to attestation engagement reporting. However, the responsible auditor and
           manager signed that the steps were completed, despite the lack of required
           information in the final report. As a result, the report did not comply with numerous
           GAGAS and AICPA reporting requirements.

       •   The Internal Review Project Checklist for Attestation Engagements was not included
           in the Manual and not recognized as official DFAS IR policies and procedures.
           Instead, Exhibit 1700-5, Examination or Review Completion Checklist, December
           2010, outlined the procedures auditors were expected to follow to ensure their work
           complied with GAGAS and AICPA standards. Exhibit 1700-5 required auditors to
           provide written documentation if they did not follow specific requirements or if a
           requirement was not clearly relevant to the work performed. If the auditors had
           considered the detailed requirements in Exhibit 1700-5, most of the deficiencies noted
           by the external reviewer may have been corrected prior to the project’s completion.

       •   A checklist that was similar to Exhibit 1330-3a, Independent Referencing Checklist
           for Performance Reviews, December 2010, was used to evaluate this examination
           attestation instead of the correct one. This checklist was titled Independent
           Referencing Checklist and was not part of DFAS IR’s official policies and
           procedures. Because the checklist addressed DFAS IR’s reporting requirements for
           audits, many of the items were indicated as not applicable by the reviewer. However,
           the Manual’s Exhibit 1330-3c, Independent Referencing Checklist Examination and
           Reviews, December 2010, was not used by the independent reviewer nor required by
           the responsible audit manager. Additionally, Exhibit 1330-3c did not include specific
           information on GAGAS or AICPA requirements for performing and reporting
           examination attestations. Lastly, one of the steps in Exhibit 1330-3c required the
           independent reference to verify that the auditor had completed Exhibit 1700-5,
           Examination or Review Completion Checklist, as part of their review. If the
           independent referencer had used the correct checklist during their review, auditors
           may have been required to consider the requirements within Exhibit 1700-5.

       •   An independent referencing review was conducted on the draft report. However, a
           comparison of the draft and final reports disclosed significant changes, which were
           not verified by an independent party prior to the report’s release. Chapter 1330,
           Independent Referencing, December 2010, states that when information is added,
           modified, or deleted from a previously referenced report, the referencer ensures that


                                                9
           changes do not affect unmodified sections of the report. The referencer then
           completes independent referencing for all added information and any modifications
           made to previously referenced sections of the report.

Recommendations, Management Comments, and Our
Response
We recommend that the Director, DFAS:

2. Establish a 2-year plan to review all audit offices for compliance with internal quality
   assurance policies and procedures and GAGAS.

Management Comments
The Director, DFAS, agreed stating that by March 1, 2013, DFAS IR will develop a plan to
review all audit offices for compliance with internal quality assurance policies and procedures
and GAGAS.

Our Response
DFAS comments were responsive. No additional comments are needed.

3. Revise the DFAS IR Policies and Procedures Manual, Exhibit 1330-3c, to include
   specific information on GAGAS and AICPA requirements for performing and
   reporting attestation engagements.

Management Comments
The Director, DFAS, agreed stating that the DFAS IR Policies and Procedures Manual will
include the specific GAGAS and AICPA requirements for performing and reporting attestation
engagements. Further, she stated that there is no Exhibit 1300-3c in the current DFAS IR
manual as referenced in the recommendation. However, if Exhibit 1330-3c was the exhibit in
question, that checklist will reside in a TeamMate template and will be updated to reflect the
necessary elements for attestation reviews. The DFAS IR Policies and Procedures Manual will
be updated by February 1, 2013.

Our Response
DFAS comments were responsive. The exhibit in question was 1330-3c and we have revised the
recommendation to reflect that. No additional comments are needed.

Supervisory Review of Projects Did Not Prevent Repeated
Noncompliance With GAGAS, AICPA Standards, or DFAS IR
Policies and Procedures
For three of the four performance audit and attestation projects reviewed, supervision was not
adequate. Although the projects contained evidence of supervisory reviews, we identified



                                               10
significant noncompliance with GAGAS and AICPA standards. Further, DFAS IR management
repeatedly did not follow policies and procedures described in the Manual.

GAGAS paragraphs 7.52 and 7.53 contain the following requirements for audit supervision for
performance audits:

               Audit supervisors or those designated to supervise auditors must
               properly supervise audit staff. Audit supervision involves providing
               sufficient guidance and direction to staff assigned to the audit to
               address the audit objectives and follow applicable standards, while
               staying informed about significant problems encountered, reviewing
               the work performed, and providing effective on-the-job training.

For attestation engagements, GAGAS 6.04 requires that auditors must adequately plan the work
and properly supervise any assistants. Further, GAGAS 6.22c states that auditors should
document evidence of supervisory review, before the engagement report is issued, of the work
performed that supports findings, conclusions, and recommendations contained in the
engagement report.

The Manual, Chapter 1100, Quality Control System, September 2010, requires thorough reviews
of all working papers, audit/attestation documentation, and draft reports to ensure accurate,
relevant, timely, efficient, economical, and effective reports. DFAS IR managers are required to
review these products to ensure that they meet standards, are understandable, relevant, and
practical. Further, Chapter 1000, Overview of the DFAS Internal Review Directorate,
April 2010, describes the responsibility of each DFAS IR manager to ensure that all work
products comply with relevant standards.

Those responsibilities include the following:

       •   The Director and Deputy Directors of DFAS IR are the executives responsible for
           ensuring that the overall operations conform to GAGAS.

       •   DFAS IR has two ACEs that support DFAS Operations, Strategic Business
           Management, and Corporate Organizations. ACEs ensure that specific functional and
           policy concerns of DFAS leadership are addressed, and that they have input into the
           work plan, and provide information and feedback on all reviews affecting them. The
           ACE also reviews draft and final reports for quality and adherence to applicable
           standards.

       •   DFAS IR has eight managers that manage performance reviews, system reviews, and
           data mining projects. The managers provide oversight of ongoing work by
           participating in the engagement planning, advising teams on standards and
           techniques, and reviewing working papers, as necessary.




                                                   11
Specific examples of the deficiencies in supervision are detailed in Table 3.

                                 Table 3. Supervision Deficiencies

        Project                             Listing of Deficiencies in Supervision
 Audit of the Retired        •    Supervisors directed staff to change the project type from a
 and Annuitant (R&A)              nonaudit service to a limited scope performance audit.
 Pay Conversion to                However, the same staff continued to perform the work,
 the Government                   supervise staff, and report the results.
                             •    Supervisors did not require staff to develop a written audit plan.
                                  GAGAS 7.50 requires auditors to develop a written audit plan
                                  for each audit. The Manual Chapter 1210, Planning the Audit,
                                  July 2009, states that the team must prepare a written plan for
                                  each audit. Final approval of the audit plan and audit program
                                  is the responsibility of the Audit Manager, Deputy, and ACE.
                             •    Although there was adequate evidence that DFAS IR
                                  communicated the planning and performance of the nonaudit
                                  service to DFAS management, the project files did not contain
                                  any evidence that DFAS IR communicated its decision to
                                  change from a nonaudit service to a limited scope performance
                                  audit to DFAS management.
 Independent                 •    The examination and the agreed-upon procedures engagements
 Examination of the               did not comply with most of the GAGAS and AICPA reporting
 Columbus Cash                    requirements.
 Accountability              •    The agreed-upon procedures project did not comply with the
 System – Defense                 AICPA reporting requirements, which require the report to be
 Agencies                         presented in the form of procedures and findings. Instead, the
 (CCAS-DA), Phase                 report included procedures, results, conclusions, and
 2, and the Agreed-               recommendations.
 Upon Procedures:            •    An independent referencing review was conducted on the draft
 MOCAS Accounts                   examination report. However, a comparison of the draft and
 Payable                          final reports disclosed significant changes which were not
                                  verified by an independent party prior to the report’s release.

Management Comments on the Finding and Our Response
Management Comments
The Director, DFAS, did not agree with our conclusion that the Agreed-Upon Procedures
MOCAS Accounts Payable project had supervision deficiencies related to independent reference
reviews. Specifically, there were not significant changes that were not verified by the
independent reference reviewer.




                                                12
Our Response
The deficiency related to independent reference reviews was related to the Independent
Examination of the Columbus Cash Accountability System – Defense Agencies (CCAS-DA),
Phase 2 project and not the Agreed-Upon Procedures: MOCAS Accounts Payable project.

Recommendations, Management Comments, and Our
Response
We recommend that the Director, DFAS:

4. Establish and document by February 28, 2013, a quality control monitoring process to
   ensure that supervision is sufficiently improved to increase compliance with GAGAS,
   AICPA standards, and the DFAS IR Policies and Procedures Manual.

Management Comments
The Director, DFAS, agreed. She stated that as part of the plan to review all audit offices for
compliance with internal policies and procedures and GAGAS, DFAS IR will include test
aspects to assess the quality of supervision provided by audit managers and the results will be
used to hold them accountable with their performance plans. The plan will be developed by
March 1, 2013.

Our Response
DFAS comments were responsive. No additional comments are needed.

5. Issue a memorandum to DFAS IR managers emphasizing the importance of effective
   supervision when evaluating manager’s performance.

Management Comments
The Director, DFAS, agreed stating that she issued a memorandum to the Director, DFAS IR,
emphasizing the importance of effective supervision when evaluating manager’s performance
and directed the results of quality control reviews be leveraged to evaluate DFAS IR manager’s
performance.

Our Response
DFAS comments were responsive. The memorandum was issued to the Director, DFAS IR, on
December 20, 2012. No additional comments are needed.

6. Monitor and evaluate DFAS IR managers’ training for FYs 2013 and 2014 and identify
   areas that may need improvement, based on the results of this review.

Management Comments
The Director, DFAS, agreed. She stated that DFAS IR will use the results of their FY 2013 and
2014 quality control testing to identify areas where audit managers may need additional training



                                                13
or development to ensure continued compliance with internal policies and procedures, GAGAS,
and AICPA standards.

Our Response
DFAS comments were responsive. No additional comments are needed.

Project Type Changes Caused Significant Noncompliance
With GAGAS and DFAS IR Policies and Procedures
For two of the projects: Project Number CL08PRP010CL, Transitional Readiness Audit of the
Retired and Annuitant (R&A) Pay Conversion to the Government, August 30, 2010, and Project
Number CO10PRS003DFAS.001, End-to-End Assessment of DFAS Texarkana Operations,
January 20, 2011, DFAS IR changed the project type before the results of the review were
reported. As a result, DFAS IR had significant deficiencies regarding the use and application of
GAGAS. In addition, DFAS IR failed to document and evaluate potential impairments to
independence.

GAGAS 1.18 states that all audits and attestation engagements begin with objectives and those
objectives determine the type of audit to be performed and the applicable standards to be
followed. GAGAS 1.27 states that a performance audit is a dynamic process that includes the
consideration of applicable standards throughout the course of the audit. An ongoing assessment
of the objectives, audit risk, audit procedures, and evidence during the course of the audit
facilitates the auditor’s determination of what to report and the proper context for the auditor’s
conclusion, including a discussion about the sufficiency and appropriateness of evidence being
used as a basis for audit conclusions. Performance audit conclusions logically flow from all
these elements and provide an assessment of the audit findings and their implications. The
Manual, Chapter 1210, Planning the Audit, July 2009, states that it is critical that audits begin
with a precise statement of the audit objectives.

For the Transitional Readiness Audit of the Retired and Annuitant (R&A) Pay Conversion to the
Government the decision to change the project type from a nonaudit service to a limited scope
performance audit resulted in significant deficiencies in compliance with GAGAS independence,
performance audit planning, fieldwork, and reporting standards. DFAS IR management decided
to change the nonaudit service to a limited scope performance audit after most of the fieldwork
was completed and performed as a nonaudit service.

For the End-to-End Assessment of DFAS Texarkana Operations, DFAS IR management changed
the project type from an agreed-upon procedures attestation engagement to a nonaudit service a
week before the report was issued. When this decision was made, about 10 months had elapsed
since the project started. GAGAS 3.30 states that the audit organization should document its
consideration of the nonaudit services, including its conclusions about the impact on
independence. The Manual, Chapter 1500, Nonaudit Services, July 2009, requires DFAS IR to
evaluate and propose to the DFAS IR Director whether providing the nonaudit service creates
independence impairment either in fact or appearance. If the determination was that impairment
would exist, then the Director for IR must approve in writing all nonaudit service engagements.



                                               14
The project files did not contain any evidence of DFAS IR’s consideration of potential
independence impairments for the nonaudit service when the project type change occurred.

Recommendations, Management Comments, and Our
Response
We recommend that the Director, DFAS:

7. Issue a memorandum to the DFAS IR staff that communicates the importance of
   documenting the consideration of potential independence impairments prior to
   performing future nonaudit services.

Management Comments
The Director, DFAS, agreed stating that she issued a memorandum to the Director, DFAS IR,
communicating the importance of documenting the consideration of potential independence
impairments prior to performing future nonaudit services in accordance with the DFAS IR
Policies and Procedures Manual.

Our Response
DFAS comments were responsive. The memorandum was issued to the Director, DFAS IR, on
December 20, 2012. No additional comments are needed.

8. Update the DFAS IR Policies and Procedures Manual to require:

       a. Documentation of the impact of changing project types, and if a substantial
          amount of work is completed, consideration of GAGAS and AICPA standards
          and DFAS IR policies and procedures.

       b. Written approval of all project type changes by the Director, DFAS IR.

       c. Written notification to audit clients regarding the decision to change the project
          type, to include any changes in applicable GAGAS and AICPA standards, and
          the level of assurance provided.

Management Comments
The Director, DFAS agreed stating that by February 1, 2013, the DFAS IR Policies and
Procedures Manual will include all the elements in recommendations 8.a, 8.b, and 8.c.

Our Response
DFAS comments were responsive. No additional comments are needed.




                                              15
Independence
Performance of Nonaudit Services Created an Organizational
Impairment to Independence
DFAS IR performed two projects as audits when they were nonaudit services. By performing
the nonaudit services, DFAS IR impaired the audit organization’s independence. We determined
that the work performed on Project Number IN09SRC001DFAS, Vendor Pay Erroneous
Payment Audit Round Six, February 10, 2011, and Project Number CO10SRC001CO, Review of
MOCAS Erroneous Payments for April 2008 – December 2008, February 11, 2011, was
payment recapture audit work. As such, DFAS IR audit offices’ organizational independence
was impaired because the work performed was prohibited by Office of Management and Budget
(OMB) Circular A-123, “Management’s Responsibility for Internal Control”,
December 21, 2004 Appendix C. Also, since the DFAS IR audit offices perform operational
audits of processes for DFAS’s commercial pay business line, the auditors were reviewing
controls they previously tested for DFAS operations management when conducting payment
recapture audits.

GAGAS 3.22 discusses the two overarching principles that apply to auditor independence when
assessing the impact of performing a nonaudit service: auditors must not (1) perform
management functions and (2) audit their own work. In addition, GAGAS 3.29 discusses the
category of nonaudit services that directly support agency operations and impair the audit
organization’s ability to meet either or both of the overarching independence principles.
Specifically, GAGAS 3.29j states that the performance of management’s assessment of internal
controls is a type of nonaudit service that would impair an audit organization’s independence.
The Manual, Chapter 1500, Nonaudit Services, July 2009, also states that staff may not perform
management functions nor audit their own work.

OMB Circular A-123, which implements the Federal Manager’s Financial Integrity Act of 1982,
states that management is responsible for establishing and maintaining internal control and that
management is responsible for monitoring internal control. Additionally, OMB implementing
guidance on the Improper Payments Elimination and Recovery Act legislation of July 2010,
OMB Memorandum Number M-11-16, April 14, 2011, Subject: Issuance of Revised Parts I and
II to Appendix C of OMB Circular A-123, states that payment recapture audit work is a
management function and responsibility.

On May 24, 2012, we issued a Notice of Concern to alert DFAS management of the
organizational impairment to independence. In the Notice of Concern, we recommended that the
Director, DFAS, mandate that the DFAS IR offices discontinue performing the
OMB Circular A-123, Appendix C, payment recapture audit. Further, we recommended that the
Director, DFAS, require DFAS IR to examine its portfolio of work to ensure that DFAS IR is not
performing additional management functions.

On June 8, 2012, the Director, DFAS, agreed with these recommendations and stated that all
payment recapture auditing work was terminated. In addition, the Director, DFAS, stated that
DFAS IR examined the portfolio of its current audit work and determined that the objectives did
not duplicate DFAS operations or result in DFAS IR’s performance of management’s functions


                                               16
or responsibilities. During our follow-up review, we will examine DFAS IR’s portfolio of work
to confirm that they are not performing management functions or responsibilities.

Nonaudit Service Reported on as an Engagement Survey
One of the projects DFAS IR performed and reported on was an engagement survey. GAGAS
contains requirements for performing and reporting the results of audits and attestation
engagements. However, GAGAS does not contain guidance for performing or reporting on the
results of engagement surveys.

DFAS IR indicated that Project Number IN10PRS005DFAS, Closeout Survey of DFAS
Certifying Officer Legislation Standard Operating Procedures, September 30, 2010, was initiated
to determine the audit readiness of specific areas within DFAS. The announcement letter did not
state that DFAS IR would follow GAGAS and the report did not state that the work was
performed in accordance with GAGAS. However, DFAS IR briefed DFAS management and
indicated that GAGAS would be followed. GAGAS 3.30 states that the audit organization
should document its consideration of the nonaudit services, including its conclusions about the
impact on independence. The Manual, Chapter 1500, Nonaudit Services, July 2009, requires
DFAS IR to evaluate and tell the DFAS IR Director whether providing the nonaudit service
creates independence impairment either in fact or appearance. If the determination was that
impairment would exist, then the Director for DFAS IR must approve in writing all nonaudit
service engagements. We found no evidence in the project files to indicate that DFAS IR had
assessed the impact of performing this type of work and reporting the results of this work on
audit organizational independence.

DFAS IR performed the engagement survey from June 2010 through September 2010. DFAS IR
determined that the available data were not audit ready and the work was subsequently
terminated. However, DFAS IR provided each site visited with the results of its review to assist
with revising existing standard operating procedures. This did not comply with GAGAS.
GAGAS 7.49 states if an audit is terminated before it is completed and an audit report is not
issued, auditors should document the results of the work to the date of termination and the reason
the audit was terminated. Determining whether and how to communicate the reason for
terminating the audit will depend on the facts and circumstances and is a matter of professional
judgment.

During our review, DFAS IR agreed to stop performing engagement surveys. DFAS IR
developed an addendum to Chapter 1210, Planning and Fieldwork Procedures to Determine
Auditability, May 2012, to provide guidance and policy on performing additional planning and
fieldwork procedures to determine whether to expend resources to complete the full engagement
or terminate the engagement. The policy also provided information on auditor responsibilities
when an engagement was terminated.




                                               17
Management Comments on the Finding and Our Response
Management Comments on the Performance of Nonaudit Services
Created an Organizational Impairment to Independence
The Director, DFAS, did not agree that the review of the Vendor Pay Erroneous Payment Audit
Round Six and Review of MOCAS Erroneous Payments for April 2008 – December 2008 was
payment recapture audit work. Specifically she stated that DFAS IR independently determined
and executed the objectives, scope, and methodologies of their erroneous pay audit work without
DFAS management’s influence. In addition, she stated that the two DFAS IR audits in question
were traditional audits performed in accordance with GAGAS 1.28. Specifically, in accordance
with GAGAS 1.28, the initial objective of erroneous payment identification led to the underlying
objective of evaluating controls to determine the reasons for the program’s lack of effectiveness
or how effectiveness could be improved. In addition, DFAS IR’s reported results reflect those
objectives were accomplished and DFAS management was responsible for detecting and
recovering erroneous payments, using the pre-payment detection tool, and overseeing the
associated internal controls in the process. Finally, the Director, DFAS, stated that our reference
to GAGAS 3.29j also incorrectly implies that DFAS IR was performing management’s
assessment of internal controls in the absence of and place of management’s own review of
internal controls. DFAS management is responsible for and conducted its own assessment of
internal controls.

Our Response
We continue to maintain that the DFAS IR audit offices’ organizational independence was
impaired because they performed OMB Circular A-123, Appendix C, payment recapture audit
work on commercial payments, which is a management function and responsibility. On
May 24, 2012, we issued a Notice of Concern to the Director, DFAS, recommending that she
direct DFAS IR to discontinue performing the work in the post payment review area for
commercial payments, to detect overpayments, and to review their current portfolio of work to
ensure that DFAS IR was not performing other management functions. On June 8, 2012, we
received a response from the Director, DFAS, which concurred with our two recommendations
and took immediate corrective action. In addition, during our field work, we interviewed DFAS
Indianapolis operations managers from Enterprise Solutions and Standards, Post Pay Review and
Analysis, Accounts Receivable, and Accounts Payable, as well as DFAS Columbus operations
managers from Contract Reconciliations in order to gain an understanding of DFAS’s recapture
payment audit program, in particular, the extent of DFAS operations management’s efforts to
detect erroneous commercial payments. The focus of DFAS operations management was on the
prevention of improper commercial payments in the pre-pay environment. Only the DFAS IR
auditors performed the routine data mining on commercial payment transactions in the post-pay
environment. DFAS operations management relied on DFAS IR work in the post-pay
environment for internal control monitoring.




                                                18
Recommendations, Management Comments, and Our
Response
We recommend that the Director, DFAS:

9. Perform and document an assessment of each completed engagement survey to
   determine its potential impact on independence.

Management Comments
The Director, DFAS, disagreed. She stated that Auditing Standards Supplement No. 11, “The
Audit Survey-A Key Step in Auditing Government Programs”, (the Supplement) issued in
January 1978, supported conducting audit surveys following GAGAS. She said that DFAS IR
was recently advised this publication is now obsolete as official Government Accountability
Office guidance, but the Government Accountability Office never issued any official rescission
of the Supplement. Therefore, DFAS IR had no initial reason to question the merits of
conducting a survey as a preliminary process to an audit. Also, she stated that our finding
references that the announcement letter did not state DFAS IR would perform the survey in
accordance with GAGAS. However, she said that there is no GAGAS requirement that
announcement letters reference performing an engagement in accordance with GAGAS.
Furthermore, the Director, DFAS, stated that there is no requirement that an engagement
termination letter state the work completed was done in accordance with GAGAS. Further, she
said that she had a concern regarding that DFAS IR sharing the results of their work was not a
violation of GAGAS 7.49. There is nothing in GAGAS that states or even implies that results of
work performed cannot be shared with auditees for terminated audits especially when that
information helps DFAS management understand the reasons the project was terminated.
Finally the termination memorandum informed the auditees DFAS IR would not be moving into
an audit.

Our Response
We determined that the engagement survey was a nonaudit service. Since the Supplement’s
release in 1978, major revisions to GAGAS were made in 1981, 1988, 1994, 2003, 2007 and
most recently December 2011. When determining the acceptability of performing engagement
surveys, DFAS IR should have relied upon GAGAS 2007 standards, which were in effect during
the time the engagement survey was performed. Further, DFAS IR’s actions clearly demonstrate
that the organization did not consider the authoritative nature of GAGAS compared to guidance,
nor the GAGAS updates issued after the Supplement’s release.

Our report did not reference a GAGAS requirement when documenting our observation that a
GAGAS statement was not included in the project announcement letter or report. We included
this information to support our conclusion that the work was performed as a nonaudit service.
GAGAS contains independence requirements that audit organizations should follow when
performing nonaudit services. As previously noted, we found no evidence in the project files to
indicate that DFAS IR assessed the impact of performing the engagement survey or reporting the
results of the work on audit organization independence.



                                              19
GAGAS 2007, 7.49 states if an audit is terminated before it is completed and an audit report is
not issued, auditors should document the results of the work to the date of termination and the
reason the audit was terminated. Determining whether and how to communicate the reason for
terminating the audit will depend on the facts and circumstances and is a matter of professional
judgment. The engagement survey report indicated that the work was terminated for the
following reasons:

        •   One DFAS site asked us to stop further review of their Standard Operating
            Procedures because they acknowledged their procedures did not fully address the
            Government Accountability Offices 12 pre-payment criteria. In addition, other sites
            for which we had completed some survey work asked for our results so they could
            review and address them.

However, DFAS IR provided the results of their work to each site reviewed. When doing this,
they created a situation in which they could potentially audit their own work in the future.
GAGAS 3.29j states that developing an entity’s policies, procedures, and internal controls is a
nonaudit service that impairs independence and supplemental safeguards will not overcome
independence impairments in this category. We request additional management comments by
March 29, 2013.

Noncompliance With GAGAS and AICPA Standards for
Performing and Reporting on Agreed-Upon Procedures and
Examination Level Attestation Engagements
For two of the projects, DFAS IR failed to comply with GAGAS and AICPA attestation
standards incorporated in GAGAS 6 on criteria, fieldwork, and reporting. Additionally, for both
projects, DFAS IR personnel did not follow the policies and procedures established in the
Manual for conducting attestation engagements.

The Manual, Chapter 1700, Attestation Engagements, February 2009, was in effect during the
work performed and reported in Project Number CO09PRA008CO, Agreed-Upon Procedures:
MOCAS Accounts Payable, August 6, 2010 attestation. For Project Number
IN10SRA004CO.001, Independent Examination of the Columbus Cash Accountability
System-Defense Agencies (CCAS-DA), Phase 2, March 18, 2011; the Manual, Chapter 1700,
Attestation Engagements, February 2009, was in effect during planning and fieldwork, but the
December 2010 revision, was in effect during the reporting phase. Both the 2009 and 2010
versions of the Manual state that when performing attestation engagements, auditors should be
knowledgeable in GAGAS and AICPA standards and competent in applying these standards.




6
 GAGAS incorporates the AICPA general standards on criteria and the fieldwork and reporting standards for
attestation engagements. GAGAS provides additional fieldwork and reporting standards for attestation engagements
performed in compliance with GAGAS.


                                                      20
Attestation Engagements Did Not Comply With GAGAS and AICPA
General Standards Pertaining to Criteria
For both of the attestation engagements, DFAS IR did not comply with GAGAS and AICPA
standards pertaining to the suitability and availability of attestation criteria.

GAGAS 6.03 states:

                 The AICPA general standard related to criteria is as follows: The
                 practitioner (auditor) must have reason to believe that the subject
                 matter is capable of evaluation against criteria that are suitable and
                 available to all users.

We found no documentation in the project files to show that DFAS IR considered all of the
characteristics of suitable criteria. Those characteristics include objectivity, measurability,
completeness, and relevance. Further, the project files contained no documentation to show that
DFAS IR considered the availability of the criteria during the projects.

We also found no documentation in the project files to indicate that the attestation client 7 took
responsibility for selecting the criteria and determining the appropriateness of the criteria for its
purposes. AICPA AT 8 101.27 states:

                 Regardless of who establishes or develops the criteria, the responsible
                 party or the client is responsible for selecting the criteria and the client
                 is responsible for determining that such criteria are appropriate for its
                 purposes.

The project files did not contain any evidence of DFAS management’s participation in selecting
the criteria used by DFAS IR auditors when conducting their work.

Agreed-Upon Procedure Level Engagement Did Not Comply With
GAGAS and AICPA Standards
We noted significant noncompliance with the GAGAS and AICPA standards for Agreed-Upon
Procedures engagements. For the Agreed-Upon Procedures: MOCAS Accounts Payable
engagement, DFAS IR performed inappropriate procedures. AICPA AT 201.18 states that an
example of an inappropriate procedure is obtaining an understanding about a particular subject.
For this project, DFAS IR obtained an understanding of DFAS information system controls to
review the basic general and application controls of a database.

Further, DFAS IR also developed recommendations for issues found during the work they
performed. To identify recommendations was not an appropriate procedure. AICPA AT 201.31
states that an agreed-upon procedures report should be in the form of procedures and findings.
Recommendations are not one of the elements of an agreed-upon procedures report.


7
  For this project, the attestation client was DFAS operations management.
8
  The prefix AT is used for Statements on Standards for Attestation Engagements and Attestation Engagement
interpretations in the AICPA standards.


                                                          21
In addition, the Agreed-Upon Procedures: MOCAS Accounts Payable report contained the
procedures performed and the results based on the procedures performed. However, DFAS IR
also included in the report the conclusions reached by the auditors and the recommendations
made by the auditors. Further, while the report included a modified GAGAS compliance
statement, the GAGAS statement included the following:

               Those standards require that we plan and perform the agreed-upon
               procedures to obtain sufficient, appropriate evidence to provide a
               reasonable basis for our findings and conclusions based on our
               agreed-upon procedures. We believe that the evidence obtained
               provides a reasonable basis for our findings and conclusions based on
               our agreed-upon procedures.

The terms “sufficient, appropriate evidence” and “conclusions” communicate a level of
assurance. However, GAGAS and AICPA standards require that agreed-upon procedures
engagements provide no level of assurance. Further, the Manual had incorrect information.
Specifically, the Manual, Chapter 1700, Attestation Engagements, Exhibit 1700-3,
February 2009, included the applicable terms “sufficient, appropriate evidence” and
“conclusions” in the Agreed-Upon Procedures report format.

Examination Level Engagement Did Not Comply With GAGAS and
AICPA Fieldwork Standards
During our review of the Independent Examination of the Columbus Cash Accountability
System – Defense Agencies (CCAS-DA), Phase 2 project, we noted significant noncompliance
with GAGAS and AICPA fieldwork requirements. Specifically, the project files did not contain
sufficient documentation to enable an experienced auditor having no previous connection with
the attestation engagement to understand from the documentation the nature, extent, and the
results of procedures performed; the evidence obtained and its source; and the auditor’s
significant judgments and conclusions. In addition, DFAS IR’s compliance with significant
GAGAS and AICPA standards was not sufficiently documented to clearly demonstrate
adherence to the standards.

GAGAS and AICPA fieldwork standards require that auditors develop an overall strategy for
conducting the attestation engagement. When developing the strategy, auditors need to have
sufficient knowledge to enable them to understand events, transactions, and practices that have a
significant effect on the subject matter. Factors to be considered in planning an attestation
engagement include the following:

       •   the criteria to be used,
       •   preliminary judgments about attestation risk and materiality,
       •   the nature of the subject matter, and
       •   conditions that may require modifications to attestation procedures.

DFAS IR auditors documented the criteria to be used in the project files. However, they failed to
document that they assessed the attestation risk and materiality for the examination engagement.
Attestation risk is defined as the risk that the auditor may unknowingly fail to appropriately
modify the attestation report on the subject matter that is materially misstated. Although


                                                    22
DFAS IR provided numerous examples of the auditor’s assessment of attestation risk and
materiality, the documentation did not sufficiently address GAGAS and AICPA requirements.
In addition, DFAS IR could not provide adequate documentation for the assessment of
conditions that may require extension or modification of attestation procedures. The
documentation provided stated that the review would be “basic” unless DFAS IR identified
something that indicated a need to review the area further. However, the term “basic” was not
defined. Also, the documentation provided was located in a previously completed project.

Also, DFAS IR did not obtain written acknowledgment or other evidence of DFAS
management’s responsibilities for the subject matter as it related to the objectives of the
engagement. According to GAGAS and AICPA fieldwork standards, an understanding with the
entity 9 should be established regarding the services to be performed for each engagement.
Auditors should obtain written acknowledgement or other evidence of the entity’s
responsibilities for the subject matter as it related to the objectives of the engagement.
Examination engagements may be performed on a variety of subject matters to include internal
control processes and historical events. Each engagement varies depending on the needs of the
users. Examples of management responsibilities that are usually addressed at the beginning of
an attestation engagement include:

           •   management’s responsibility for the subject matter,
           •   management’s acknowledgment of their responsibility for determining that the
               criteria are appropriate for the attestation purposes, and
           •   availability of all records relevant to the subject matter.

DFAS IR could not provide adequate documentation of other evidence obtained from DFAS
management in place of written acknowledgement of managemnt’s responsibilities during the
examination engagement.

GAGAS 6.07 also requires auditors to communicate the following information during attestation
fieldwork:

           •   the nature, timing, and extent of planned testing and reporting, and
           •   the level of assurance the auditor will provide.

Documentation in the project files was not adequate to confirm that DFAS IR communicated this
information to management during engagement planning.

Attestation Engagement Did Not Comply With GAGAS and AICPA
Reporting Standards
Neither of the reports DFAS IR issued for the Independent Examination of the Columbus Cash
Accountability System – Defense Agencies (CCAS-DA), Phase 2, complied with GAGAS and
AICPA reporting standards for an examination-level engagement. In addition, the MOCAS


9
    For this project, the entity was DFAS operations management.



                                                         23
Accounts Payable Agreed-Upon Procedures engagement was missing a required AICPA
reporting element.

For the Independent Examination of the Columbus Cash Accountability System – Defense
Agencies (CCAS-DA), Phase 2 project, DFAS IR issued two reports. One report had summary
information that was restricted, and another report contained detailed information.

The summary report was missing required AICPA reporting statements. Specifically, AICPA
reporting standards state that a restricted report should contain a separate paragraph at the end,
which includes the following elements:

       •   a statement indicating that the report is intended solely for the information and use of
           the specified parties and
       •   a statement that the report is not intended to be and should not be used by anyone
           other than the specified parties.

In addition, the summary report did not indicate that certain information had been omitted from
the report and the reason the information was omitted. GAGAS 6.51 states if certain pertinent
information is prohibited from public disclosure or is excluded from a report due to the
confidential or sensitive nature of the information, auditors should disclose in the report that
certain information has been omitted and the reason or other circumstances that make the
omission necessary.

Further, the reports should have included a required modified GAGAS compliance statement.
However, the reports did not include a GAGAS statement. DFAS IR acknowledged that since
they had deviated from GAGAS requirements, they should have assessed the significance of the
noncompliance, documented that assessment, and included a modified GAGAS compliance
statement in the reports.

Finally, for both of the examination and agreed-upon procedures engagement reports, DFAS IR
did not include additional required AICPA reporting statements and elements. Because the
projects were subject to AICPA standards, the following statements and elements should have
been included in the attestation reports. See Table 4.

                 Table 4. Missing Report Statements in the Examination and
                        Agreed-Upon Procedure Engagement Reports

         Project                        Missing Reporting Statements and Elements
 Agreed-Upon                     •   A title that includes the word “independent.”
 Procedures: MOCAS
 Accounts Payable,
 August 6, 2010
 Independent                     •   A statement that the subject matter is the responsibility of the
 Examination of the                  responsible party and identification of the responsible party.
 Columbus Cash                   •   A statement that DFAS IR’s responsibility was to express an
 Accountability System –             opinion of the subject matter based on their examination.


                                                 24
         Project                       Missing Reporting Statements and Elements
 Defense Agencies              •   A statement that the examination was conducted in
 (CCAS-DA), Phase 2,               accordance with attestation standards established by the
 March 18, 2011                    AICPA, and accordingly, included procedures the auditors
                                   considered necessary in the circumstances.
                               •   A statement that DFAS IR believes the examination provides
                                   a reasonable basis for their opinion.
                               •   DFAS IR’s opinion on whether the subject matter is based on
                                   (or in conformity with) the criteria in all material respects.
                               •   A statement restricting the use of the report to specified
                                   parties since a written assertion had not been provided by
                                   DFAS management.

Recommendations, Management Comments, and Our
Response
We recommend that the Director, DFAS:

10. Issue a memo to DFAS operations management that informs the specified parties of the
    noncompliance with GAGAS and AICPA standards for the two projects.

Management Comments
The Director, DFAS, agreed stating that she issued a memorandum to the Director, DFAS IR,
directing him to inform the Deputy Director, DFAS Operations of the noncompliance with
GAGAS and AICPA standards for the two projects.

Our Response
DFAS comments were responsive. The Director, DFAS, issued a memorandum on
December 20, 2012 and the Director, DFAS IR, issued a memorandum on January 15, 2013,
notifying the Deputy Director, DFAS Operations of the noncompliances with the two projects.
No additional comments are needed.

11. Review all other attestation engagements completed from July 1, 2010, to present to
    ensure that those projects complied with GAGAS and AICPA standards. For those
    that did not comply, notify DFAS operations management of specific instances of
    noncompliance.

Management Comments
The Director, DFAS, agreed. She stated that DFAS IR identified two additional attestation
engagements completed from July 1, 2010, to present and will review those projects. If they do
not comply with GAGAS and AICPA standards, DFAS IR will notify DFAS management.




                                              25
Our Response
DFAS comments were responsive. DFAS IR will review those assignments by August 1, 2013.
No additional comments are needed.

12. Revise the DFAS IR Policies and Procedures Manual, Chapter 1700, Attestation
    Engagements, December 2010, by removing inappropriate terms and phrases such as
    “to evaluate,” “to review for adequacy and sufficiency,” and the sentence “we believe
    that the evidence obtained provides a reasonable basis for our findings and conclusions
    based on our agreed-upon procedures“ from Exhibit 1700-3, Example Agreed-Upon
    Procedures Report.

Management Comments
The Director, DFAS, agreed stating the DFAS IR Policies and Procedures Manual chapters 4, 5,
and 6 will replace Chapter 1700 from the previous manual. The new chapters will be revised by
February 1, 2013, and will not include the inappropriate terms and phrases.

Our Response
DFAS comments were responsive. No additional comments are needed.




                                             26
Appendix C. GAGAS Noncompliances
Warranting Disclosure Due to Their Importance
to the Quality Control System
The DFAS IR audit organization’s performance during the audits showed evidence of
noncompliance in two additional GAGAS areas: planning and reporting. These two areas of
noncompliance were not considered to be significant and did not affect the opinion rendered, but
due to their relative importance to the audit organization’s system of quality control, they
warrant disclosure. For each of the two areas, the auditors did not:

   •   planning
           o adequately document audit risk and fraud risk for a project, and
   •   reporting
           o discuss the affect of two scope limitations in a report; and
           o include all of the required elements of a finding in an examination report.

Assessment of Audit Risk and Fraud Risk Require
Improvement
The audit documentation for DFAS IR’s assessment of audit risk for Project Number
CL10PRP006CL, Audit of Internal Controls over the Thrift Savings Plan Voucher Process,
February 10, 2011, needed improvement. Both GAGAS 7.07 and 7.11 require auditors to assess
audit risk and significance within the context of the audit objectives. Further, GAGAS 7.77
states:

               Auditors should prepare audit documentation in sufficient detail to
               enable an experienced auditor, having no previous connection to the
               audit, to understand from the audit documentation, the nature, timing,
               extent, and results of audit procedures performed, the audit evidence
               obtained and its source and the conclusions reached, including evidence
               that supports the auditors’ significant judgments and conclusions.

The Manual, Chapter 1270, Preparing Audit Files and Working Papers, December 2010, requires
auditors to consider the assessment of audit risk and significance within the context of the audit
objectives during audit planning.

We found that working paper references to the audit risk planning session did not provide
information on the methodology used by DFAS IR to identify audit risk indicators and the
methodology used to consider whether the indicators were insignificant. Although project files
indicated that audit risk would continue to be monitored throughout the audit and documented as
new exposures arise, documentation was not available to demonstrate that the auditors performed
this work. Improvement in assessing audit risk is necessary to provide reasonable assurance that
evidence is sufficient and appropriate to support findings and conclusions.




                                                     27
In addition, the audit documentation for DFAS IR’s assessment of fraud risk for the Audit of
Internal Controls over the Thrift Savings Plan Voucher Process project needed improvement.
GAGAS 7.30 states in planning the audit, auditors should assess risks of fraud occurring that is
significant within the context of the audit objectives. The Manual, Chapter 1250, Red Flag
Indicators and Fraud Scenarios, June 2008, states GAGAS 7.30 recommends that as part of audit
planning, audit team members should discuss fraud risks, including factors such as an
individual’s incentives or pressure to commit fraud, the opportunity for fraud to occur, and
rationalizations or attitudes that could allow individuals to commit fraud to determine
susceptibility of the program or function to fraud.

For the Thrift Savings Plan Voucher Process project, the documentation of the auditor’s
assessment of fraud contained the following information:

               Team reviewed Thrift Savings Plan process and brainstormed areas
               with exposure to fraud and abuse. No areas were identified as
               susceptible to fraud and abuse. However, on an on-going basis the
               team will continue to be vigilant to areas or activities exposing fraud or
               abuse.

The working paper reference to the fraud risk discussion did not provide information on the
methodology used by DFAS IR to reach their conclusions. For example, there were no areas
susceptible to fraud or abuse, or information on potential fraud risks or indicators that were
discussed and considered insignificant. Also, there was no evidence in the project files that the
team continued to consider indicators of fraud or abuse throughout the project.

The Effect of Scope Limitations Was Not Discussed in a
Report
The report for the Transitional Readiness Audit of the Retired and Annuitant (R&A) Pay
Conversation to the Government did not discuss the affect of two scope limitations on the audit
or the assurance provided. GAGAS 1.12b describes situations when auditors use modified
compliance statements such as scope limitations, restrictions on access to records, government
officials, or other individuals needed to conduct the audit. When auditors use a modified
GAGAS statement, they should disclose in the report the applicable requirement(s) not followed,
the reasons for not following the requirements(s), and how not following the requirements
affected, or could have affected, the audit or assurance provided. In addition, the Manual,
Chapter 1270, Preparing Audit Files and Working Papers, June 2008, states that when auditors
do not comply with all applicable GAGAS requirements, they should include a modified
GAGAS compliance statement in the audit report. Further, DFAS IR policy requires auditors to
determine whether the report identified the standard that was not followed, the reasons(s) why it
was not followed, and the effect that not following the standard had on the audit results.

The report contained a modified GAGAS statement for two scope limitations. For those scope
limitations, the auditor discussed the reasons for not following GAGAS and the potential affects.
However, two additional scope limitations were documented within the report and the auditor did
not discuss their affect on the audit or the assurance provided.




                                                       28
The report scope limitations that were not discussed were:

       •   The scope of the assessment was limited to DFAS in-house planning activities
           because of concerns over a contractor’s obligations and production issues. The
           remaining areas will be reviewed in a post-transition follow up review.

       •   Due to the limited scope of the audit, testing the reliability of computer-processed
           data were limited to reviewing the project schedule in MS project and manually
           comparing schedule outputs to weekly R&A transition meeting notes and minutes.

The effect of these two scope limitations was not discussed; therefore, the users of the report
were not provided with information regarding the scope limitations’ impact on the audit or
assurance provided.

Examination Reports’ Findings Did Not Comply With GAGAS
Reporting Standards
For the Independent Examination of the Columbus Cash Accountability System – Defense
Agencies (CCAS-DA), Phase 2, a sensitive detail and a summary reports were issued. Both
reports included a summary of the finding’s condition, but not the required elements of criteria,
cause and effect. GAGAS 6.15 states that when auditors identify deficiencies they should plan
and perform procedures to develop the elements of a finding that are necessary to achieve the
engagement objectives. DFAS IR had developed the required elements of findings and provided
the information to DFAS management in 10 separately issued Notices of Findings. However,
there was no language in either report to guide the reader to this information. As a result,
subsequent report users may not have access to the auditor’s detailed analysis and conclusions.

Recommendation, Management Comments, and Our
Response
13. We recommend that the Director, DFAS, issue a memorandum to DFAS IR personnel
    that communicates the importance of documenting all of the elements of findings when
    reporting the results of their work and the auditor’s assessment of audit risk, fraud
    risk, and scope limitations.

Management Comments
The Director, DFAS, agreed. She stated that she issued a memorandum to the Director, DFAS
IR, communicating the importance of adequately documenting their findings and the auditor’s
assessment of audit risk, fraud risk, and scope limitations. She also directed in the memorandum
that the results of the quality control reviews be leveraged to evaluate compliance.

Our Response
DFAS comments were responsive. The memorandum was issued to the Director, DFAS IR, on
December 20, 2012. No additional comments are needed.



                                                29
Appendix D. Scope and Methodology
We reviewed the adequacy of the DFAS IR audit organization’s compliance with its quality
control policies, procedures, and GAGAS. We reviewed eight audits at the DFAS IR Columbus
and Cleveland, Ohio, and Indianapolis, Indiana offices.

We reviewed the adequacy of the design of policies and procedures that the DFAS IR audit
organization established to provide reasonable assurance of compliance with GAGAS in
conducting its audits and attestation engagements. In addition, we reviewed the following policy
and guidance document, DFAS IR Policies and Procedures Manual, versions 2008, 2009, 2010.

In performing our review, we considered the requirements of quality control standards and other
auditing standards contained in the 2007 Revision of GAGAS issued by the Comptroller General
of the United States. GAGAS 3.56 states:

              The audit organization should obtain an external peer review sufficient
              in scope to provide a reasonable basis for determining whether, for the
              period under review, the reviewed audit organization’s system of
              quality control was suitably designed and whether the audit
              organization is complying with its quality control system in order to
              provide the audit organization with reasonable assurance of conforming
              with applicable professional standards.

We performed this review from August 2011 through September 2012 in accordance with
standards and guidelines established in the March 2009 Council of the Inspectors General on
Integrity and Efficiency “Guide for Conducting External Peer Reviews of Audit Organizations of
the Federal Offices of Inspector General.” In performing this review, we assessed, reviewed, and
evaluated:

       •   the adequacy of the design of policies and procedures that the DFAS IR audit
           organization established to provide reasonable assurance of compliance with GAGAS
           in the conduct of its audits and attestation engagements;
       •   staff understanding of quality control policies and procedures;
       •   independence documentation and records of continuing professional education to
           verify the measures that enable the identification of independence impairments and
           maintenance of professional competence;
       •   independence safeguards for nonaudit services; and
       •   eight reports and related project documentation to determine whether established
           policies, procedures, and applicable standards were followed.

We selected 8 reports from a universe of 25 reports issued by the DFAS IR from July 1, 2010, to
June 30, 2011. We reviewed the eight projects for compliance with the DFAS IR audit
organization’s system for quality control for audits, attestation engagements, and nonaudit
services.




                                                    30
In selecting the reports, we worked with the DFAS IR audit organization to establish the universe
of reports that were issued during the review period. We then selected reports that were
representative of the types of reviews completed. The DFAS IR did not issue any financial audit
reports during the review period.

The following table identifies the specific reports we reviewed at both audit offices. The “Type
of Review” column contains information that was determined by the report GAGAS compliance
statement and/or type of review described in the final report.

      Audit Office              Report Title, Number, Issue Date             Type of Review
       Columbus           Project Number CO10SRC001CO, “Review              Recovery Auditing
                          of MOCAS Erroneous Payments for April
                          2008-December 2008,” February 11, 2011
                          Project Number CO09PRA008CO,                         Agreed-Upon
                          “Agreed-Upon Procedures: MOCAS                        Procedures
                          Accounts Payable,” August 6, 2010
                          Project Number CO10PRS003DFAS.001,                 Nonaudit Service
                          “End-to-End Assessment of DFAS Texarkana
                          Operations,” January 20, 2011
       Cleveland          Project Number CL08PRP010CL,                        Limited Scope
                          “Transitional Readiness Audit of the Retired      Performance Audit
                          and Annuitant (R&A) Pay Conversion to the
                          Government,” August 30, 2010
                          Project Number CL10PRP006CL, “Audit of            Performance Audit
                          Internal Controls over the Thrift Savings Plan
                          Voucher Process,” February 10, 2011
      Indianapolis        Project Number IN09SRC001DFAS, “Vendor            Recovery Auditing
                          Pay Erroneous Payment Audit Round Six,”
                          February 10, 2011
                          Project Number IN10PRS005DFAS,                   Engagement Survey
                          “Closeout: Survey of DFAS Certifying
                          Legislation (COL) Standard Operating
                          Procedures,” September 30, 2010
                          Project Number IN10SRA004CO.001,                     Examination
                          “Independent Examination of the Columbus
                          Cash Accountability System-Defense
                          Agencies (CCAS-DA), Phase 2 Management
                          Letter,” March 18, 2011

Our review would not necessarily disclose all weaknesses in the system of quality control or all
instances of noncompliance because we based our review on selective tests. There are inherent
limitations in considering the potential effectiveness of any quality control system. Departures
from GAGAS can result from misunderstood instructions, mistakes in judgment, carelessness, or
other human errors. Projecting any evaluation of a quality control system is subject to the risk
that one or more procedures may become inadequate because conditions may change or the
degree of compliance with procedures may deteriorate.


                                               31
Defense Finance and Accounting Service
Comments




                      32
                                    Management Comments
                                              on
      Quality Control Review of the Defense Finance and Accounting Service (DFAS) Audit
                      Organization (Project No. D20ll-DIPOAI-0254.000)


I. We non-concur with your determination that the Review ofMOCAS Erroneous Payments,
Vendor Pay Erroneous Payment Audit Round Six, and the Closeout Survey ofDFAS CertifYing
Officer Legislation (COL) Standard Operating Procedure (SOP) projects were performed as non-
audit services and subsequently resulted in an organizational impairment to independence. Our
rationale is as follows:

        a . DFAS Internal Review (IR) independently determined and executed the objectives,
scope, and methodologies of their erroneous pay audit work without DFAS management's
influence. Office of Management and Budget (OMB) implementing guidance on the Improper
 Payments Elimination and Recovery Act of July 2010, OMB Memorandum Number M-ll -16,
dated April14, 2011, Subject: Issuance of Revised Parts I and 11 to Appendix C ofOMB Circular
A-123, states that a payment recapture audit is not an audit in the traditional sense. The two DFAS
IR audits in question were traditional audits performed in accordance with GAGAS, specifically
               1
GAGAS 1.28 • In accordance with GAGAS 1.28, the initial audit objective of erroneous payment
identification led to the underlying objective of evaluating Business Activity Monitoring (BAM)
and Front End Analysis (FEA) controls to determine the reasons for the programs' lack of
effectiveness or how effectiveness could be improved. DFAS IR's reported results reflect those
objectives were accomplished and DFAS management was responsible for detecting and recovering
erroneous commercial payments, using the pre-payment detection tool, and overseeing the
associated internal controls in the process. Your reference to GAGAS 3.29j also incorrectly implies
that OFAS IR was performing management's assessment of internal controls in the absence of and
in place of management's own review of BAM and FEA controls. OFAS management is
responsible for and conducted its own assessment of internal controls. Finally, you expressed no
independence concerns about the performance of management functions after reviewing two similar
audits in OFAS IR's previous peer review report dated October 31, 2006.

        b. Auditing Standards Supplement No.I I, The Audit Survey- A Key Step in Auditing
Government Programs, issued January 1978, supported conducting audit surveys following
GAGAS. DFAS IR was recently advised this publication is now obsolete as official Government
Accountability Office (GAO) guidance, but the GAO never issued any official rescission of
Supplement No. II. Therefore, OFAS IR had no initial reason to question the merits of conducting
a survey, such as the Survey for COL SOP project, as a preliminary process to an audit. In addition,
your finding references the announcement letter did not state OF AS lR would perform the survey in
accordance with GAGAS. However, there is no GAGAS requirement that announcement letters
reference performing an engagement in accordance with GAGAS. The survey was a preliminary
planning step for a traditional audit performed in accordance with GAGAS 1.28. Furthermore,

1
  Perfonnance audit objectives may vary widely and include assessments of program effectiveness, economy, and
efficiency; internal control; compliance; and prospective analyses. These overall objectives are not murually exclusive.
Thus, a perfonnance audit may have more than one overall objective. For example, a perfonnance audit with an initial
objective of program effectiveness may a.lso involve an underlying objective of evaluating internal controls to detenninc
the reasons for a program's lack of effectiveness or how effectiveness can be improved.
                                                           2




                                                          33
there is no requirement that an engagement termination letter state the work completed was done in
accordance with GAGAS. Another concern we have with your finding is that DFAS IR sharing the
results of their work was not a violation of GAGAS 7.49. Your finding correctly states that
standard, "Determining whether and how to communicate the reason for the audit was terminated
will depend on the facts and circumstances and is a matter of professional judgment." However,
there is nothing in GAGAS that states or even implies that results of work performed cannot be
shared with auditees for terminated audits especially when that information helps DFAS
management understand the reasons the project was terminated. Finally, the termination
memorandum informed the auditees DFAS IR would not be moving into an audit.

2. We non-concur with your determination that the Agreed Upon Procedures (AUP) MOCAS
Accounts Payable project had Supervision deficiencies related to independence reference reviews
whereby "a comparison of the draft and final reports disclosed significant changes which were not
verified by an independent party prior to the report's release." Our rationale is that DFAS IR
reviewed the released final report (working paper - AS6.a) against the version the Independent
Referenccr used (working paper- ASS.j) and the only difference found was in the next to the last
paragraph above the signature regarding the date the AUP was completed: signed version date is as
of August 4, 2010, whereas the Independent Referencer copy was dated May 24, 20l0.

Therefore, we recommend the following changes to your report:

   •   Page 4, 2"d Paragraph- Delete the sixth and seventh bullets "Performance of non-audit
       services created an organizational impainnent to independence" and "A non-audit service
       was reported on as an engagement survey."

   •   Page 5, Table 1 and Page 6, Table 2- Remove "X" under independence, professional
       judgment and quality control columns for MOCAS Erroneous Payments and Vendor Pay
       Erroneous Payment Round Six projects. Your incorrect determination that these
       engagements impaired DFAS-IR' s independence led your reviewers to further conclude that
       these engagements also had deficient supervision and quality control. Also, the Closeout
       Survey of DFAS COL SOP should be included in Table 1 for consistency with how you are
       presenting the erroneous pay projects and the "X" under independence and quality control
       columns should be removed. Lastly, remove the "X" under supervision for the AUP
       MOCAS Accounts Payable project.

   •   Page ll, T a ble 3- The Supervisory Deficiencies, AUP MOCAS Accounts Payable states
       "An independent referencing review was conducted on the draft examination report.
       However, a comparison of the draft and final reports disclosed signi.f'u:ant changes which
       were not verified by an independent party prior to the report's release." We suggest you
       remove the deficiency related to this project from Table 3. We do not believe this represents
       a "significant change" requiring verification by an independent party. We also do not
       believe this represents deficient supervision as shown in Table 3.

   •   Page 12-13, Performance of Non-audit Services Created an Organizational
       Impairment to Independence - Remove this section in its entirety from your report.



                                                3




                                                34
35
36
6. Monitor and evaluate DFAS IR managers' training for FYs 2013 and 2014 and identify
   areas tbat may need improvement, based on the results of this review.

   DFAS Response: Concur. DFAS IR will use the results of their FY 2013 and 2014 quality
   control testing described in Recommendation 2 to identify areas where audit managers may
   need additional training or development to ensure continued compliance with internal
   policies and procedures, GAGAS, and AJCPA standards.

   ECD: October 1, 2015

7. Issue a memorandum to the DFAS IR staff that communicates the importance of
   documenting the consideration of potential independence impairments prior to
   performing future non-audit services.

   DFAS Response: Concur. I issued a memorandum to the Director, IR communicating the
   importance of documenting the consideration of potential independence impairments prior
   to performing future non-audit services in accordance with DFAS IR Policies and
   Procedures Manual, Non-audit Services Chapter 2.

   ECD: Complete

8. Update the DFAS IR Policies and Procedures Manual to require:

   a. Documentation of the impact of changing project types, and if a substantial amount
      of work is completed, consideration of GAG AS and AI CPA standards and DFAS
      IR policies and procedures.
   b. Written approval of all project type changes by the Director, DFAS IR.
   c. Written notification to audit clients regarding the decision to change the project
      type, to include any changes in applicable GAGAS and AICPA standards, and the
      level of assurance provided.

   DFAS Response: Concur. The DFAS IR Policies and Procedures Manual, General and
   Administrative Chapter I will include all of the recommended elements in Sa, 8b, and 8c for
   any change in project type.

   ECD: February I, 2013

9. Perform and document an assessment of each completed engagement survey to
   determine its potential impact on independence.

   DFAS Response: Non-Concur and recommend deleting this recommendation per
   comments above.

10. Issue a memo to DFAS operations management that informs the specified parties of
    the noncompliance with GAG AS and AICPA standards for the two projects.


                                            6




                                           37
   DFAS Response: Concur. I issued a memorandum to the Director, IR directing him to
   inform the Deputy Director, DFAS Operations of the noncompliance with GAGAS and
   AICPA standards for the Agreed-Upon Procedures: MOCAS Accounts Payable and the
   Independent Examination of the Columbus Cash Accountability System - Defense Agencies
   (CCAS-DA), Phase 2.

   ECD: Complete

11. Review all ot.hcr attestation engagements completed from July 1, 2010, t.o present to
    ensure that those projects complied with GAGAS and AlCPA standards. For those
    that did not comply, notify DFAS operations management of specific instances of
    noncompliance.

   DFAS Response: Concur. DFAS IR identified two additional attestation engagements
   completed from July I, 20 I 0, to present and will review those projects to ensure they
   complied with GAGAS and AI CPA standards. If they did not comply, DFAS lR will notify
   DFAS management of the noncompliance.

   ECD: August I, 2013

12. Revise the DFAS JR Policies and Procedures Manual, Chapter 1700, Attestation
    Engagements, December 2010, by removing inappropriate terms and phrases such as
    "to evaluate," "to review for adequacy and sufficiency," and the sentence "we believe
    that the evidence obtained provides a reasonable basis for our findings and conclusions
    based on our agreed-upon procedures" from Exhibit 1700-3, Example Agreed-Upon
    Procedures Report.

   DFAS Response: Concur. The DFAS IR Policies and Procedures Manual, Attestation
   Chapters 4, 5, and 6, will replace the Chapter 1700 from the previous manual. Chapters 4, 5,
   and 6 will not include the inapl?ropriate terms and phrases listed in the recommendation.

   ECD: February 1, 2013

13. We recommend that the Director, DFAS, issue a memorandum to DFAS IR personnel
    that communicates the importance of documenting the detailed results of findings
    when reporting the results of their work and the auditor's assessment of audit risk,
    fraud risk, and scope limitations.

   DFAS Response: Concur. I issued a memorandum to the Director, IR communicating the
   importance of adequately documenting their findings in final reports and auditor's
   assessment of audit risk, fraud risk, and scope limitations and directed the results of the
   quality control reviews be leveraged to evaluate compliance.

   ECD: Complete




                                            7




                                           38
